U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530
December 14, 2020

Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Michael Anthony Cernak v. USA,
S.Ct No. 20-6447

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November
20, 2020 and placed on the docket on November 25, 2020. The government’s response is due on
December 28, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including January 27, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6447
CERNAK, MICHAEL ANTHONY
USA

AMY B. CLEARY
OFFICE OF THE FEDERAL PUBLIC DEFENDER
411 E. BONNEVILLE AVE.
STE. 250
LAS VEGAS, NV 89101
702-338-6577
AMY_CLEARY@FD.ORG

